APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Memorandum in the United States
Court of Appeals for the Ninth Circuit
(March 6, 2019) . . . . . . . . . . . . . . . App. 1
Appendix B Civil Minutes in the United States
District Court Central District of
California
(September 18, 2017) . . . . . . . . . . App. 5
Appendix C Civil Minutes in the United States
District Court Central District of
California
(July 24, 2017). . . . . . . . . . . . . . . App. 15
Appendix D Order Denying Petition for Rehearing
in the United States Court of Appeals
for the Ninth Circuit
(April 1, 2019) . . . . . . . . . . . . . . . App. 49

App. 1

APPENDIX A
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 17-56573
D.C. No. 2:15-cv-01458-CAS-SS
[Filed March 6, 2019]
_____________________________
TROY BEEMER,
)
)
Plaintiff-Appellant,
)
)
v.
)
)
UNIVERSITY OF SOUTHERN )
CALIFORNIA and DOES, 1-10, )
)
Defendants-Appellees.
)
_____________________________ )
MEMORANDUM*
Appeal from the United States District Court
for the Central District of California
Christina A. Snyder, District Judge, Presiding

*

This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.

App. 2
Submitted March 4, 2019**
Pasadena, California
Before: KLEINFELD, Circuit Judge, COLE,*** Chief
Judge, and NGUYEN, Circuit Judge.
Troy Beemer appeals the district court’s grant of
summary judgment in favor of the University of
Southern California (“USC”) on Beemer’s claim that
USC failed to reasonably accommodate his disabilities
under the Americans with Disabilities Act, 42 U.S.C.
§ 12132; the Rehabilitation Act, 29 U.S.C. § 794; and
the Unruh Civil Rights Act, Cal. Civ. Code § 51 et seq.
We have jurisdiction under 28 U.S.C. § 1291 and
affirm.
To establish a prima facie case of disability
discrimination, Beemer must show that (1) he is
disabled, (2) he is “otherwise qualified,” to remain at
USC, meaning that he “can meet the essential
eligibility requirements [] with or without reasonable
accommodation,” (3) he was dismissed “solely because
of [his] disability,” and (4) USC “receives federal
financial assistance (for the Rehabilitation Act claim),
or is a public entity (for the ADA claim).” Zukle v.
Regents of Univ. of Cal., 166 F.3d 1041, 1045 (9th Cir.
1999). Professional schools are not required to “lower or
to effect substantial modifications of standards” to
accommodate a person living with a disability. Se.

**

The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).

***

The Honorable R. Guy Cole, Jr., United States Chief Judge for
the Sixth Circuit Court of Appeals, sitting by designation.

App. 3
Cmty. Coll. v. Davis, 442 U.S. 397, 413–14 (1979)
(holding that nursing school lawfully denied admission
to applicant with hearing impairment).
Here, construing the facts in the light most
favorable to Beemer, see Bravo v. City of Santa Maria,
665 F.3d 1076, 1083 (9th Cir. 2011), we hold that the
district court properly granted summary judgment to
USC. As the district court concluded, USC never
dismissed Beemer from the Nurse Anesthetist
program. Rather, Beemer chose not to return following
a medical leave of absence. Beemer’s prima facie case
fails because the third element—that he was dismissed
due to his disability—was not met.
Beemer’s argument that he was constructively
dismissed from the program is unsupported by the
evidence. But even assuming that Beemer was
constructively dismissed, his claims would nevertheless
fail because he was not otherwise qualified for the
program despite receiving reasonable accommodations
from USC, which included allowing Beemer to take
time off, leave clinical sites early in order to have extra
time to prepare patient care plans, delay completion of
mandatory clinical training, and receive extra time for
examinations. Despite these accommodations, Beemer
performed poorly. While enrolled in the classroom
portion of the program, he repeatedly failed to attend
class, was unresponsive to his team member for a
major group presentation project worth forty percent of
the course grade, was unresponsive to the course
instructor and program director, Dr. Gold, and then
ultimately turned in a paper that did not meet the
assignment criteria and entirely failed to give the

App. 4
required presentation. Beemer was placed on academic
probation but failed to comply with the terms of the
probation contract. Beemer faults USC for denying
other requested accommodations. However, USC
properly denied additional accommodations because
they would require substantial modifications of the
program’s standards.
AFFIRMED.

App. 5

APPENDIX B
“O”
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
Case No. CV 15-01458-CAS (SSx)
[Filed September 18, 2017]
________________________________
BEEMER
)
)
V.
)
)
UNIVERSITY OF SOUTHERN
)
CALIFORNIA ET AL.
)
________________________________ )
CIVIL MINUTES - GENERAL
Present: The Honorable CHRISTINA A. SNYDER
Ingrid Valdes
Deputy Clerk

Laura Elias
Court Reporter /
Recorder

N/A
Tape No.

Attorneys Present for Plaintiffs:
No Appearance
Attorneys Present for Defendants:
Puneet Sandhu
Proceedings: P L A I N T I F F ’ S
RECONSIDER

MOTION
TO
THE COURT’S

App. 6
ORDER GRANTING DEFENDANT’S
MOTION FOR SUMMARY
JUDGMENT (Dkt. 77, filed August 4,
2017)
I. INTRODUCTION & BACKGROUND
On February 27, 2015, Troy Beemer initiated this
action against the University of Southern California
(“USC”). Dkt. 1. Beemer alleges four claims against
USC for (1) disability discrimination in violation of
Section 504 of the Rehabilitation Act, 29 U.S.C. §794
(“Section 504”); (2) failure to make a reasonable
accommodation in violation of the Americans with
Disabilities Act (“ADA”); (3) disability discrimination
and sexual harassment in violation of the Unruh Civil
Rights Act, Cal. Civ. Code §§ 51 et seq. (“Unruh Act”);
and (4) gender discrimination in violation of Title IX,
20 U.S.C. § 1681. Id. The gravamen of Beemer’s
complaint is that he faced sexual harassment and
disability discrimination while enrolled in USC’s Nurse
Anesthetist program (the “Program”).
On June 26, 2017, USC filed a motion for summary
judgment on all of Beemer’s claims. Dkt. 70. The Court
granted defendant’s motion for summary judgment on
July 24, 2017. Dkt. 75 (the “Order”). On August 4,
2017, plaintiff filed a motion to reconsider the Court’s
Order granting summary judgment. Dkt. 77 (“MTR”).
Defendant filed its opposition on August 28, 2017. Dkt.
82 (“Opp’n”).
On September 18, 2017, the Court held oral
argument, at which plaintiff did not appear.

App. 7
Having carefully considered the parties’ arguments,
the Court finds and concludes as follows.
II. LEGAL STANDARDS
Local Rule 7–18 sets forth the grounds upon which
the Court may reconsider the decision on any motion:
A motion for reconsideration of the decision on
any motion may be made only on the grounds of:
(a) a material difference in fact or law from that
presented to the Court before such decision that
in the exercise of reasonable diligence could not
have been known to the party moving for
reconsideration at the time of such decision, or
(b) the emergence of new material facts or a
change of law occurring after the time of such
decision, or (c) a manifest showing of a failure to
consider material facts presented to the Court
before such decision. No motion for
reconsideration shall in any manner repeat any
oral or written argument made in support of or
in opposition to the original motion.
C.D. Cal. L.R. 7–18.
Further, Federal Rule of Civil Procedure 60(b)
provides that the Court may reconsider a final
judgment and any order based on: “(1) mistake,
surprise, or excusable neglect; (2) newly discovered
evidence; (3) fraud; (4) a void judgment; (5) a satisfied
or discharged judgment; or (6) extraordinary
circumstances which would justify relief.” School Dist.
No. 1J, Multnomah County, Or. v. ACandS, Inc., 5 F.3d
1255, 1263 (9th Cir. 1993). Under Rule 60(b) (6), the socalled catch-all provision, the party seeking relief

App. 8
“must demonstrate both injury and circumstances
beyond [her] control that prevented [her] from
proceeding with the action in a proper fashion.”
Latshaw v. Trainer Wortham & Co., Inc., 452 F.3d
1097, 1103 (9th Cir. 2006). In addition, the Ninth
Circuit has confirmed that “[t]o receive relief under
Rule 60(b)(6), a party must demonstrate extraordinary
circumstances which prevented or rendered [her]
unable to prosecute [her] case.” Lal v. California, 610
F.3d 518, 524 (9th Cir. 2010). This Rule must be “used
sparingly as an equitable remedy to prevent manifest
injustice and is to be utilized only where extraordinary
circumstances prevented a party from taking timely
action to prevent or correct an erroneous judgment.” Id.
(quoting United States v. Washington, 394 F.3d 1152,
1157 (9th Cir. 2005)). Any Rule 60(b) motion must be
brought within a reasonable time and no later than one
year after entry of judgment or the order being
challenged. See Fed. R. Civ. P. 60(c)(1).
III. DISCUSSION
Plaintiff requests the Court to reconsider its July
24, 2017 Order granting defendant’s motion for
summary judgment.1 MTR at 2. Plaintiff contends
there was a manifest showing of a failure to consider
material facts presented to the Court before its
decision. Id.
1

The Court notes that plaintiff makes this request “pursuant to
Rule 54(b)” of the Federal Rules of Civil Procedure and Local Rule
7–18.” MTR at 2. Yet Rule 54(b) concerns judgment on multiple
claims or involving multiple parties. The proper rule under which
plaintiff should make his request is FRCP 60(b), which concerns
grounds for relief from a final judgment order.

App. 9
First, plaintiff argues that the Court should
reconsider its Order because defendant failed to meet
its summary judgment burden. Id. To establish a prima
facie claim for disability discrimination, a plaintiff
must show:
(1)

He qualifies as disabled within the meaning
of the applicable statutes;

(2)

He was “otherwise qualified” to remain a
student in the program, i.e., he can meet the
essential eligibility requirements of the
school, with or without reasonable
accommodation;

(3

He was dismissed because of his disability;
and

(4)

USC receives federal financial assistance (for
the Section 504 claim), is a public entity (for
the ADA claim), and/or is a business
establishment (for the Unruh Act claim).

Zukle v. Regents of Univ. of California, 166 F.3d 1041,
1045 (9th Cir. 1999); Cal. Civ. Code § 51(b). Plaintiff
contends that, although the Court stated in its Order
that plaintiff failed to establish the nature of his
disability, defendant did not dispute whether plaintiff
possessed a disability that qualified under the
Americans with Disabilities Act or section 504 of the
Rehabilitation Act. MTR at 2. Thus, despite the Court’s
discussion to the contrary, plaintiff argues that it is
undisputed by the parties that plaintiff had a disability
that required accommodations. Id. at 2–3. With respect
to the second element of a prima facie discrimination
claim, plaintiff contends that defendant’s statement of

App. 10
facts states that “USC did not remove Beemer from the
Program,” and accordingly, there is no dispute as to
whether plaintiff was “otherwise qualified” to remain
a student in the Program. Id. at 3 (citing Dkt. 70-2 at
17).
Therefore, plaintiff argues, the only issue that
remains is whether plaintiff was dismissed from the
Program based on his disability. Id. According to
plaintiff, the Court mistakenly viewed plaintiff’s
written “plan for returning to clinical training” as his
mandate for accommodations for his injuries, because
plaintiff subsequently expanded his request for clinical
training to include an additional hospital. Id. The
Court accepted defendant’s assertions that these
requests would have resulted in a fundamental or
substantial modification of the Program’s curriculum.
Id. Yet, plaintiff contends, plaintiff was not actually
precluded from receiving the clinical rotations
necessary to complete the required cases at the
hospitals he requested, and because the facts do not
show that plaintiff had to complete clinical cases within
any specific timeframe (even the ones at Cedars-Sinai
Medical Center), defendant could have simply extended
the time for plaintiff to complete the clinical cases at
Cedars-Sinai in order to accommodate plaintiff’s
difficulty travelling. Id. at 3–4. Plaintiff argues that
defendant gave no evidence that this accommodation
could not have been made. Id. at 4. Accordingly, there
were options available to permit plaintiff to complete
the Program without fundamentally altering the
nature of the Program. Id. Defendant’s refusal to make
this reasonable accommodation precluded plaintiff from
continuing in the program. Id. Therefore, plaintiff

App. 11
argues, whether defendant’s failure to allow the
reasonable accommodations constructively dismissed
plaintiff from the Program is a fact that is still in
dispute. Id.
In response, defendant argues that plaintiff’s
motion does not make the required “manifest showing”
of a failure to consider material facts presented to the
Court. Opp’n at 1. Plaintiff does not point the Court to
any evidence that the Court did not explicitly consider
in its Order, or evidence that would establish a genuine
issue of material fact that precludes summary
judgment. Id.
Defendant contends that plaintiff, for the first time,
asserts that there is a genuine issue of material fact
which precludes summary judgment—namely, a new
accommodation that he never sought from defendant,
and one that he never alleged at any point during the
litigation or in opposition to the summary judgment
motion.2 Id. at 2. This new accommodation is that, by
virtue of a time extension, plaintiff could have driven
to Cedars-Sinai and would have agreed to do so in
order to complete his clinical coursework, despite
plaintiff’s assertion that he had a disability that caused
him difficulty driving. Id. Yet plaintiff fails to point to
evidence that establishes whether this newly asserted

2

Defendant also notes that, by invoking this new modification to
the Program, plaintiff “effectively concedes” that his request to
train only at particular hospitals—the basis on which plaintiff has
proceeded throughout this litigation—would have resulted in a
fundamental or substantial alteration of defendant’s program and
standards.

App. 12
modification of the Program was reasonable, or would
have rendered plaintiff “otherwise qualified.” Id.
Additionally, defendant argues that the Court did
not mistakenly conclude that plaintiff was not
“disabled” within the meaning of the applicable
statutes. Instead, after considering the material facts,
the Court stated that plaintiff was unable to provide
evidence to support two of the necessary elements for
a prima facie disability discrimination claim—(1) that
plaintiff was dismissed from the program, and (2) that
plaintiff was otherwise qualified to remain in the
Program. Id. at 4 (citing Order at 16, 20). The Court
specifically concluded, based on the evidence presented,
that plaintiff was not dismissed from the Program. Id.
(citing Order at 16). Out of caution, the Court went on
to address plaintiff’s argument that he was unable to
return to the Program because of defendant’s failure to
accommodate his disability, and concluded that the
undisputed evidence supported inferences in
defendant’s favor that plaintiff was afforded reasonable
accommodations and denied unreasonable ones. Id.
(citing Order at 20). Thus, plaintiff has failed to make
a “manifest showing” that the Court failed to consider
material facts with respect to these two elements. Id.
As the Court concluded in its Order, the Court finds
that plaintiff was not dismissed, directly or
constructively, from the Program. Order at 16. This
fact was undisputed at summary judgment. Id. at 16.
Defendant did not dismiss plaintiff, as plaintiff was
granted medical leave and subsequently failed to enroll
in courses or otherwise return to the Program. Id. at
16–17. Insofar as there may have been a constructive

App. 13
dismissal because plaintiff was unable to return to the
Program, plaintiff failed to provide evidence to support
this assertion. Id. at 16. Plaintiff contended that his
clinical work had to occur at particular hospitals in
order to make his commute shorter—yet he did not
provide evidence of his home address, the location of
the hospitals, why other forms of transportation were
unavailable, why he could not endure driving, or how
driving related to his disability. Order at 17, n. 10.
Out of caution—if plaintiff was indeed
constructively dismissed from the program—the Court
considered the material facts before it as to whether
plaintiff was “otherwise qualified.” Id. at 17–20. The
Court observed that the few accommodations that
plaintiff was denied would have required a substantial
alteration of the Program, or would not have permitted
plaintiff to meet Program standards. Id. at 18. In the
instant motion, plaintiff argues an entirely new
possible modification of the Program—a time extension
that would have afforded him more time to complete
the Program. MTR at 3–4. Plaintiff notes that the
Program had to be completed in 24 months, and he
contends that the simple accommodation of extending
the 24-month period in which he could prepare cases at
Cedars-Sinai would have accommodated his difficulty
travelling. Id. The Court finds three problems with
plaintiff’s new contention. First, if this simple time
extension was an available accommodation to plaintiff,
it is unclear why he never raised it with defendant.
Second, if such an accommodation was requested from
defendant, plaintiff fails to state why he never
presented the request to the Court prior to its decision
on summary judgment. Instead, plaintiff opposed

App. 14
summary judgment by arguing that he should have
been able to complete the Program at other facilities
within a reasonable driving distance. See Order at
17–22; Dkt. 72 at 4. Third, plaintiff fails to offer any
logical reason as to why he was unable to present the
request to the Court at the time of summary judgment.
Therefore, plaintiff fails to demonstrate that there was
a “manifest showing” of failure to consider material
facts presented to the Court in its July 24, 2017 order.
In addition, plaintiff fails to demonstrate any mistake,
surprise, excusable neglect, newly discovered evidence,
fraud, or extraordinary circumstances that would
justify relief from final judgment pursuant to Rule
60(b). See ACandS, Inc., 5 F.3d at 1263.
Accordingly, plaintiff’s motion is DENIED.
IV. CONCLUSION
In accordance with the foregoing, the Court hereby
DENIES plaintiff’s motion for reconsideration of the
Court’s July 24, 2017 order granting defendants’
motion for summary judgment.
IT IS SO ORDERED.
______ :
Initials of Preparer

IV

02

App. 15

APPENDIX C
‘O’ JS-6
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
Case No. 2:15-cv-01458-CAS (SSx)
[Filed July 24, 2017]
________________________________
TROY BEEMER
)
)
V.
)
)
UNIVERSITY OF SOUTHERN
)
CALIFORNIA
)
________________________________ )
CIVIL MINUTES - GENERAL
Present: The Honorable CHRISTINA A. SNYDER
Catherine Jeang
Deputy Clerk

Laura Elias
Court Reporter /
Recorder

Attorneys Present for Plaintiffs:
Phillip VanAllsburg, III
Attorneys Present for Defendants:
Puneet Sandhu

N/A
Tape No.

App. 16
Proceedings: DEFENDANT’S MOTION FOR
SUMMARY JUDGMENT (Filed June
26, 2017, dkt. 70)
I. INTRODUCTION
On February 27, 2015, Troy Beemer initiated this
action against the University of Southern California
(“USC”). Dkt. 1. Beemer alleges four claims against
USC for (1) disability discrimination in violation of
Section 504 of the Rehabilitation Act, 29 U.S.C. §794
(“Section 504”); (2) failure to make a reasonable
accommodation in violation of the Americans with
Disabilities Act (“ADA”); (3) disability discrimination
and sexual harassment in violation of the Unruh Civil
Rights Act, Cal. Civ. Code §§ 51 et seq. (“Unruh Act”);
and (4) gender discrimination in violation of Title IX,
20 U.S.C. § 1681. Id. The gravamen of Beemer’s
complaint is that he faced sexual harassment and
disability discrimination while enrolled in USC’s Nurse
Anesthetist program.
On June 26, 2017, USC filed the instant motion for
summary judgment on all of Beemer’s claims. Dkt. 70
(the “Motion”). In support of the Motion, USC has filed
a memorandum, dkt. 70-1, a statement of
uncontroverted facts, dkt. 70-2 (“SUF”), and three
declarations with accompanying exhibits, dkts. 70-3
through 70-5. On July 7, 2017, Beemer filed an
opposition.1 Dkt. 72. On July 10, 2017, USC filed a
1

This matter was noticed for a hearing on July 24, 2017. Thus,
pursuant to the Local Rules, plaintiff’s opposition was untimely.
See C.D.Cal. L.R.7-9 (requiring that opposing papers be filed no
later than 21 days before a noticed hearing - July 3, 2017 here).

App. 17
reply. Dkt. 73. On July 14, 2017, USC lodged
transcripts from Beemer’s deposition. Dkt. 74.
Having carefully considered the parties’ arguments,
the Court finds and concludes as follows.
II. BACKGROUND
Commencing in August 2011, Beemer sought to
become a Certified Registered Nurse Anesthetist
(“CRNA”) by enrolling in USC’s two-year CRNA
program (the “Program”). In his first year completing
the Program, Beemer underwent eye surgery, suffered
neck and back injuries in an unrelated car accident,
and claims to have been inappropriately touched and
sexually harassed by staff at a hospital affiliated with
USC’s Program. Beemer did not complete the Program.
The gravamen of Beemer’s complaint is that USC failed
to reasonably accommodate his physical injuries and
disabilities or adequately respond to and prevent
sexual harassment during his first clinical rotation.
Beemer has not file a statement of genuine disputes
or any evidence in opposition to the Motion. Thus, “the
Court may assume that the material facts as claimed
and adequately supported by [USC] are admitted to
exist without controversy.” C.D.Cal. L.R. 56-3. The
Court describes the facts supported by USC here.

However, there does not appear to have been any prejudice
because of Beemer’s untimely opposition. Accordingly, USC’s
request that the Court disregard the untimely opposition is
DENIED.

App. 18
A. The Program
When anesthesia is administered to a patient, a
CRNA is responsible for patient safety. The CRNA
almost always remains in the operating room
throughout an entire surgery or procedure in which
anesthesia was used. To become a CRNA, a registered
nurse must complete an educational program
accredited by the Council on Accreditation of Nurse
Anesthesia Programs (“Council on Accreditation”) and
pass a certifying examination administered by the
National Board for Certification and Recertification of
Nurse Anesthetists. The Council on Accreditation
requires that any accredited program be at least 24
months long or the part-time equivalent of a 24-month
program. The Council on Accreditation also requires
that a CRNA program curriculum “prepare[] the
student for the full scope of current practice in a
variety of work settings and require[] a minimum of
550 clinical case,” including a specific number of cases
in various categories. SUF No. 6.
USC’s Program is accredited by the Council on
Accreditation. The Program requires participants to
complete 45 units of instruction, including 32 clinical
units, over six semesters (ordinarily 24 consecutive
months). The Program begins in the fall. During the
Spring Semester of the first year, participants engage
in clinical training three full days each week.
Thereafter, students spend 4 to 5 full days each week
performing clinical rotations until they graduate. The
Program is designed so that students take the five
clinical courses in sequence from their second semester
onward. Each clinical course builds upon the skills

App. 19
learned and objectives achieved in the previous
courses.
In order to ensure that students see a sufficient
number and variety of clinical cases, USC partners
with hospitals around the greater Los Angeles Area,
which volunteer to train a certain number of students
each semester. At all times relevant here, several of
USC’s affiliate sites had specialties that permit
students to complete clinical rotations in specific
patient-contexts. For example, Cedar-Sinai Medical
Center partnered with USC to offer “General” rotations
as well as thoracic cases, neurosurgical cases, and
obstetrics cases. Dkt. 70-4 Ex. D. The cases at each
hospital are different, requiring that students do
clinical work in different places. For example, CedarSinai Medical Center was the only affiliate where
students could work on advanced neurosurgical
anesthesia and thoracic cases, both of which must be
completed in order to sit for the national qualifying
examination. Similarly, Children’s Hospital Los
Angeles (“CHLA”), a pediatrics hospital, does not offer
gynecology, geriatric, or other advanced cases. Both
hospitals were affiliated to the Program, but students
could not complete all their clinical courses at CHLA
because they would not be sufficiently exposed to
different types of patients and cases.
B. Beemer’s First Two Semesters
On November 3, 2011, the Program Director, Dr.
Michele Gold, sent Beemer a letter advising him that
his mid-semester GPA was below 3.0 in a physiology
course. The letter further informed Beemer that a

App. 20
grade below 3.0 could result in his being placed on
academic probation.
In January 2012, Beemer was assigned to HarborUCLA Medical Center (“Harbor”) for his first clinical
training course, ANST 505.2 In February 2012, Beemer
underwent nose, sinus, and eye surgery. He was given
a few days off from the Program to recover from the
surgery. He does not remember requesting any
additional time and, instead, returned to the Program.
During clinical rotations, instructors at the affiliate
hospital give feedback to the students using an
electronic system. In April 2012, Dr. Teresa Norris, one
of Beemer’s professors, accessed the electronic system
to review student progress and discovered that one of
Beemer’ s instructors had given Beemer low marks,
several of which indicated that Beemer could not meet
course objectives without instructor assistance. The
reviewing instructor, Ralph Quinonez, a CRNA, stated
that there were “gaps” in Beemer’s critical thinking
ability. As students perform their clinical rotations,
they are required to complete a care plan for each
assigned patient. Students are required to prepare care
plans the day before a procedure so that instructors can
review students’ plans before allowing them to
administer anesthesia to a patient. During the Spring
Semester 2012, Norris reviewed one of Beemer’s care
plans and found it deficient. Beemer failed to identify

2

USC designates clinical courses using the abbreviation “ANST”
followed by the course number. Students begin in ANST 505 and
then proceed through ANST 507, ANST 509, ANST 511, and ANST
513 in order.

App. 21
safety issues from the patient’s history, including how
long the patient had been diabetic, her medication
dosage, or how frequently she took medications. In
Norris’s words, the care plan was “at best, C-grade
work.” Dkt. 70-5 ¶ 7. On April 9, 2012, because
Beemer’ s care plans had been poorly prepared, Gold
asked instructors at Harbor to excuse Beemer from
clinical training by 3 p.m. on Wednesdays and
Thursdays to give him more time to prepare care plans
for the following day (his clinical days were Wednesday
through Friday).
Although Beemer does not recall the exact dates on
which harassment occurred, Beemer contends that he
faced sexual harassment while working at Harbor in
Spring Semester 2012. On one day in January or
February 2012, a Harbor CRNA, Maria Valmidiano
said “multiple times throughout the day to other
providers” that “she was pimping [Beemer].”3 July 2016
Depo. 80:16-174 . At an undetermined time in January

3

USC has offered evidence that “pimping” is a term commonly
used in medical academia to refer to the pedagogical practice of
asking students fast-paced, increasingly difficult questions to test
their knowledge. Beemer testified that he was unaware of any such
meaning in medical academia.
When asked whether Valmidiano did anything else to him that
he considered inappropriate, Beemer further testified that
Valmidiano made a derogatory comment about Asian drivers.
Although inappropriate, Beemer, who is not Asian, did not
consider the comment to be directed at mocking him.

4

Plaintiff now resides in Michigan. On July 12, 2016, plaintiff’s
original deposition was scheduled to occur in Los Angeles. Plaintiff
arrived nearly three hours late (just before noon) and left less than

App. 22
or February 2012, Beemer complained about
Valmidiano’s comments to a Harbor staff member, Tina
Manibhai, who ensured that Beemer would not be
scheduled to work with Valmidiano thereafter.
At an undetermined time in March or April 2012,
Beemer claims that a CRNA at Harbor, Dee Faulk,
inappropriately touched him. Beemer contends that he
was sitting at a desk reviewing work for the next day
when Faulk walked up to him, leaned over and touched
his arm, leg, and groin. He described the touching thus:
She was touching my arm up and down . . . and
my right leg, and my groin and genitals as well
. . . [w]ith both hands.
Id. 66:11-17. Beemer testified during his deposition
that “there were other times where she would kind of
like touch my upper back or scratch my upper back,”
and that, although he could not remember how many
times, she touched his back on fewer than ten
occasions. Id. 66:23-67:19. On one occasion, Beemer
testified, Faulk told him, “ [y]ou know Troy, I’m still a
young woman and I want to start dating again,” then
asked him how old he was. July 2016 Depo. 74:1-6. No

four hours later to travel back to Michigan. Dkt. 41. The
Magistrate Judge ordered plaintiff to appear for an additional
deposition, which occurred on March 9, 2017. Id. USC has
submitted transcripts from these two depositions. They are the
only deposition transcripts presently before the Court. For
purposes of this order, the Court refers each transcript using the
date of the deposition. For example, citations to the transcript of
July 12, 2016, take the following form “July 2016 Depo.”

App. 23
one else at Harbor did anything that Beemer
considered sexual harassment.5
On April 6, 2012, Beemer was in a car accident that
resulted in a neck and back injury.6
On April 11, 2012, Quinonez complained to Gold
about Beemer’s performance at Harbor. On April 12,
2012, the Associate Program Director, Dr. Karen
Embrey, Gold, and Beemer met to discuss Beemer’s
performance at Harbor and Quinonez’s complaint.
During the meeting, Beemer reported Faulk’s
inappropriate touching to Gold and Embrey.7

5

At an undetermined time during his clinical rotation at Harbor,
a staff member known to Beemer as “Paul” said that he could not
believe the poor quality of people being admitted to the Program
and looked at Beemer. Beemer does not believe Paul’s comment
was related to Beemer’s gender and does not know if it was related
to his disability. Beemer believes he reported Paul’s comment to
USC during that semester, but does not recall to whom.
6

Neither party has offered evidence describing the scope of
plaintiff’s injuries, the nature of the car accident, or what sort of
recovery timeline it required. The record before the Court only
states that plaintiff suffered an unidentified “injury to [his] back
and neck area” and had a “back and neck issue” thereafter. March
2017 Depo. 40:3-10. Additionally, in his correspondence with the
Program director, Beemer stated that he experienced “health
issues . . . secondary to the car accident [he] was involved in.” Dkt.
70-4 Ex. X. Other than these abstruse references, the record
provides no further detail.

7

Beemer testified that he reported Faulk’s conduct to Embrey and
Gold in “the first week or two of April” 2012. The only record
evidence of a meeting between the three people appears to have
been the April 12, 2012 meeting.

App. 24
Immediately after the meeting, Gold removed Beemer
from Harbor. As Gold has explained here:
After hearing what Mr. Beemer had to say, I
determined that the best thing to do was to
excuse Mr. Beemer from the remainder of his
clinical training course at Harbor-UCLA. There
were only seven days of clinical training left in
the [Spring Semester 2012] at that point. I
anticipated that he could make up the missed
training time in a subsequent clinical rotation at
another clinical affiliate site.
8

Dkt. 70-4 ¶ 25. Beemer did not return to Harbor.

Norris was responsible for determining Beemer’s
grade in ANST 505. The grade was based upon the
following three factors: (1) a score for clinical
preparation and care plan review (“mainly, the
[instructors’] clinical evaluations,” dkt. 70-5 ¶ 11) (70%
of final grade), (2) a score on a substance abuse
examination (10%), and (3) a score on an anesthesia
knowledge examination (20%). To determine the first
factor, Norris used a formula identified in the course
syllabus for converting instructor evaluations into an
average clinical evaluation score. Norris combined that
score with Beemer’s scores on the two examinations to
determine a raw score. She then reviewed written
comments from instructors. Based upon those
comments and her own review of students’ written care
8

There is no indication in the record whether USC determined
that Faulk inappropriately touched Beemer. The only evidence
presently before the Court describing Faulk’s conduct is Beemer’s
deposition testimony about Faulk.

App. 25
plans, she revised scores upward “if merited.” Id. ¶ 13.
She did not revise any scores downward because she
only uses the comments to increase scores, particularly
if a student is “on the cusp of two grades” and the
comments warrant giving them the higher grade. Id.
Norris did not penalize Beemer for the seven days of
clinical work that he could not complete at the end of
the semester nor did she consider any instructor
evaluations from Faulk, Valmidiano, or “Paul.”9 Based
upon his clinical evaluation numbers, Beemer earned
46 out of 70 possible points for his clinical work. He
received a 100% score on his substance abuse
evaluation and an 83.33% score on his anesthesia
knowledge examination, translating to 10 out of 10
points and 16.66 points out of a possible 20,
respectively. Thus, Beemer’s raw score was 72.66 out of
100, a C. After reviewing the comments about Beemer
in his instructors’ evaluations, Norris decided that an
increase from 46 to 53 points was appropriate. That
change increased his grade to a 79.66 percent, a B-,
which was his final grade in ANST 505. Consistent
with Program policy, Beemer’s B- grade resulted in his
being placed on academic probation.
On May 7, 2012, Gold and Beemer signed a
“Probation Contract” requiring him to demonstrate
proficiency in the clinical objectives of ANST 505
during his upcoming ANST 507 course.

9

Norris found a handwritten evaluation by Faulk, but, in light of
Beemer’s complaints, did not consider it. There is no evidence of
any evaluations by Valmidiano or a staff member named “Paul.”

App. 26
C. Summer Semester 2012
Beemer was assigned to a different hospital for
ANST 507 during the Summer Semester 2012, namely
the Los Angeles County-USC Medical Center (“LACUSC”). Beemer began his clinical rotation at LAC-USC
in May 2012. In May 2012, Beemer began requesting
time off to attend physical therapy and doctor
appointments relating to his April 6, 2012 car accident.
The Program asked Beemer to schedule appointments
around his class and clinical schedule as much as
possible, but otherwise permitted him to miss clinical
rotations whenever necessary. The Program permitted
Beemer to take all of his requested time off, including
a full week of May 2012. When plaintiff took a week off
from the Program, Gold requested that Beemer provide
a medical clearance upon his return. When Beemer
returned, he had a doctor’s note indicating that he
could return to work at “FULL DUTY-NO
RESTRICTIONS.”
After Beemer returned from the week off, he missed
a class and failed to communicate with his instructors
at LAC-USC as well as Gold. On June 12, 2012, Gold
counseled Beemer to notify his instructors in advance
of absences and to attend class and clinical rotations to
the extent possible around his medical appointments.
Gold also asked that Beemer be more prompt and
consistent in responding to emails.
At an undetermined time in June or July 2012,
Beemer informed Gold that he felt he was unable to
continue clinical training because of his car accident
and ongoing treatment. Gold and Beemer discussed
potential options and Beemer decided to take an

App. 27
incomplete for ANST 507. Beemer signed an
“Assignment of Incomplete Form,” indicating that he
would complete his clinical training hours for ANST
507 during the Fall Semester 2012. Because Beemer
would be completing his ANST 507 rotations during the
Fall Semester 2012, he would not commence ANST 509
until Spring Semester 2013, thereby delaying his
graduation from the Program by one semester. Beemer
did not return to clinical training during the Summer
Semester 2012.
D. Fall Semester 2012
On the deadline to register for Fall courses, Beemer
informed Gold that he could not return to clinical
training because of his ongoing care and back injuries.
Beemer requested that he be permitted to continue his
non-clinical coursework during Fall Semester 2012
without making up the ANST 507 clinical hours as
planned. USC granted Beemer’s request and asked for
a doctor’s note confirming Beemer’s inability to
participate in clinical rotations. Beemer provided a
doctor’s note indicating that he was “unable to work in
a clinical setting secondary to his ongoing care.”
One of Beemer’s non-clinical courses during Fall
2012 was ANST 508, entitled “Research: Investigative
Inquiry.” The course was taught by Gold. As part of the
course, Gold assigns students to work in pairs on a
research project that accounts for 40% of their final
grade. The ANST 508 syllabus stated that students
should contact the USC Office of Disability Services
and Programs (“DSP”) if they needed an
accommodation during the course.

App. 28
On October 2, 2012, Gold emailed Beemer to ask
whether Beemer anticipated returning to clinical
training in January 2013, as anticipated. Beemer
responded that he expected to return to clinical
training in Spring Semester 2013. In order to ensure
that Beemer was prepared to return to clinical training
after a seven-month hiatus, Gold, in consultation with
other Program faculty, prepared a “Contract of Study”
listing conditions for Beemer’s return to patient care.
The Contract of Study included the following
conditions:
• obtain a medical release to return to work,
• complete specific simulation workshops
alongside the first-year students to refresh
anesthesia skills and knowledge of patient
safety issues,
• improve upon email communication, and
• complete the requirements of the Probation
Contract.
Dkt. 70-4 Ex. S. On October 15, 2012, Beemer signed
the “Contract of Study.”
On October 29, 2012, Gold emailed Beemer about
his absence from “a board review session,” and his
leaving class early without explanation. Dkt. 70-4 ¶ 39.
Beemer did not respond. On October 31, 2012, Beemer
missed a simulation workshop listed in his Contract of
Study. On November 5, 2012, Gold asked Beemer to see
him after class, but Beemer left without speaking to
Gold. On November 6, 2012, Gold emailed Beemer to
schedule a meeting later that afternoon about Beemer’s

App. 29
Contract of Study, his absences, and his failure to
answer emails. On the same day, Gold emailed Beemer
regarding his failure to return signed “credentialing
documents” that were required for his proposed clinical
rotation in Spring 2013. The forms had been due on
October 22, 2012. Dkt. 70-4 Ex. V. Beemer did not
respond to either of these November 6, 2012 emails.
On November 7, 2012, Beemer’s research partner in
ANST 508 informed Gold that Beemer was not
responding to communications about their joint project.
On November 8, 2012, Beemer’s research partner
emailed Beemer (and copied Gold) stating that he was
unsure of Beemer’s plan to accomplish or start their
joint project, but that he intended to proceed alone
because “week-after-week” he had not heard back from
Beemer. Dkt. 70-4 Ex. U. Beemer did not respond to his
partner’s email.
On November 9, 2012, Beemer missed a second
workshop required by his Contract of Study. On
November 12, 2012, Beemer missed ANST 508.
On November 13, 2012, Gold sent Beemer a letter
regarding Beemer’s absences, failure to complete
requirements in the Contract of Study, failure to
respond to communications, and continuing failure to
return the necessary credentialing documents for his
clinical rotation in Spring 2013. The November 13,
2012 letter further stated:
Following discussion with the USC Graduate
School, this letter serves as an academic
warning. You must meet with me and the
Program administrative faculty, Dr. Norris

App. 30
and/or Dr. Embrey by November 20th, 2012, to
develop a timeline for completion of the above
items. In addition, the failure to attend two
workshops (airway and GASP 2) may preclude
you from beginning ANST 507 Clinical
Residency this spring 2013. As a reminder, you
are on clinical probation, and ANST 507 has an
incomplete for your grade. If these items are not
resolved at the end of fall semester 2012 on
Friday December 7, you will be dismissed from
the program of Nurse Anesthesia.
Please contact me as soon as possible.
Dkt. 70-4 Ex. V.
As of November 19, 2012, Gold had not received any
response from Beemer. Gold emailed Beemer a copy of
the November 13, 2012 letter and asked when Beemer
would be available to meet the following day. Beemer
responded on November 19, 2012, via email. Embrey,
Gold, and Beemer met on November 20, 2012, to
discuss Beemer’s return to clinical training. Gold asked
Beemer to prepare a written plan for his return to
treating patients, expecting him to explain how and
when he would complete the requirements of the
Contract of Study.
On November 28, 2012, Beemer provided a written
response and “Plan for Returning to Clinical Training.”
Beemer’s written response/plan was principally a list
of demands. It stated the following:
1.
2.

Immediately be removed from clinical
probation, including grade change.
Complete Fall 2012 courses.

App. 31
3.
4.
5.
6.
7.
8.
9.
10.
11.
12.

13.

Complete research project, with exception of
class presentation.
Register for ANST 507 and 509 for Spring
2013, and receive 507 grade change.
Complete rotations for ANST 507 and 509 at
either CHLA or LAC-USC.
Register for ANST 51 land 513 for Summer
2013.
Complete rotations for ANST 51 land 513 at
either CHLA or LAC-USC.
Complete Capstone Case Study during
Summer 2013.
Graduate from USC Program of Nurse
Anesthesia in August 2013.
I am willing to consider the two observation
days, but GASP & airway workshop are not
necessary.
Due to my continued rehab from the car
accident, it would be nice to have some
flexibility in my clinical schedule.
No longer be forced to write pathophysiology
‘write-ups’ the night before clinical, as they
only inhibit my learning and do not appear to
be listed in the syllabus.
If I do go back to LAC-USC Medical Center,
I should not be assigned to work with Jim
Carey, Dr. Norris, or Dr. Embrey.

Dkt. 70-4 Ex. X. Gold reviewed Beemer’s proposal and
determined that some of his requests appeared to be
requests for accommodations related to a disability. On
November 29, 2012, Gold sent a letter to Beemer
explaining that, pursuant to Program and USC policy,
requests for accommodation of a disability should be

App. 32
submitted in the first instance to DSP. Gold told
Beemer that if DSP approved accommodations, the
Program would follow DSP’s instructions, including
Beemer’s request that he not be required to give a class
presentation in ANST 508.
In his declaration here, Gold explains that it was
“not possible” for Beemer to take two clinical courses at
the same time and for him to graduate in August 2013
because the clinical courses build upon one another and
each require four to five full days of work each week.
Dkt. 70-4 ¶ 47. Gold avers that there “is not enough
time in a day or in a week to take two clinical courses
simultaneously” and Beemer “would not be able to
complete the minimum number of specialty cases or the
overall requirement of at least 550 cases in the
remaining two semesters.” Id. Gold further avers that
Beemer’s request that he not be forced to complete care
plans before patient procedures would violate Council
on Accreditation requirements. Id. ¶ 48.
Beemer was scheduled to give his class presentation
on December 3, 2012, in ANST 508. Gold never
received any instructions from DSP or a doctor’s note
from Beemer about the presentation, but Beemer did
not give his presentation. Beemer submitted his
research project paper to Gold for review. The rubric in
the ANST 508 course syllabus refers to the research
project as a “Methodology project.” To complete the
project, the syllabus states:
Each student pair is expected to identify a
research question or clinical practice issue; it
may be relevant to nurse anesthesia or another
point of interest. This question or issue will be

App. 33
the focus of your project. The question is to be
framed using the PICO format (explained in
class). The project is a 30 minute presentation
and paper proposing steps to utilize relevant
research in a specific clinical or academic
setting.
Dkt. 70-4 Ex. Q. It further stated that student projects
must discuss a minimum of four research articles
supporting both sides of their identified research
question and how the project would be graded. The
syllabus stated that specific points would be allocated
to, among other things, how well students examined
the research methodologies of the academic papers
discussed and whether students included a “table of
research studies” as attached to the syllabus. Beemer’s
paper analyzed and critiqued the American system of
medical malpractice. Beemer’s paper, which has been
submitted here alongside Gold’s comments and
grading, did not identify and analyze at least four
academic studies in the field, it did not analyze
research methodologies, and it did not include the
requisite table of research. In Gold’s view, Beemer had
not performed the assignment in accordance with the
syllabus and had submitted “a policy paper” instead.
Dkt. 70-4 ¶ 50. Gold gave Beemer 17 points out of a
possible 40 for the research paper and zero points out
of a possible 10 for the presentation. Beemer received
a Din ANST 508.
On December 6, 2012, Gold sent Beemer a letter
reminding him of his obligations under the Contract of
Study.

App. 34
E. Spring Semester 2013 Onward
On December 10, 2012, Beemer met with Gold and
informed Gold that he believed he could not return to
clinical training as scheduled for January 2013. Gold
worked with USC staff to ensure that Beemer was
granted a medical leave of absence effective January
2013. On December 21, 2012, DSP sent Gold a
memorandum listing accommodations for which
Beemer had been approved. The letter approved
Beemer to receive time and a half on examinations as
well as enlarged print on handouts and exam
paperwork. It did not list any other accommodations.
In March 2013, Edward Roth, the then-Director of
DSP, asked Gold whether it would be possible for
Beemer to complete his clinical training at only three
sites: LAC-USC, CHLA, and Keck Hospital. Gold
concluded that it was not possible to ensure Beemer got
the minimum number and variety of clinical cases at
those three sites. According to Gold, at a minimum,
Beemer would have to complete a clinical rotation at
Cedars-Sinai Medical Center to ensure he received
enough specialty cases, including advanced
neurosurgical and thoracic cases, which are
unavailable at LAC-USC, CHLA, or Keck Hospital.
Gold requested that Beemer contact him and see if they
could come up with other accommodations that would
allow Beemer to complete the Council on Accreditation
requirements. Beemer never contacted Gold.
On May 29, 2013, Gold emailed Beemer advising
him to contact the Registrar’s office and the Financial
Aid office regarding his leave of absence, which had
been approved for Spring Semester 2013. Beemer did

App. 35
not respond. In November 14, 2013, at Beemer’s
request, Gold forwarded an email to Beemer from
December 20, 2012, stating that he had been approved
for medical leave during Spring Semester 2013.
No later than “early 2014,” Beemer acknowledges
that he was healthy enough to work as a registered
nurse. March 2017 Depo. 173:25-174:4. Beemer did not
return to the Program and does not recall whether he
ever made any effort to contact USC about returning
from medical leave. March 2017 Depo. 172:8-11.
III. LEGAL STANDARDS
Summary judgment is appropriate where “there is
no genuine dispute as to any material fact and the
movant is entitled to judgment as a matter of law.”
Fed. R. Civ. P. 56(a). The moving party bears the initial
burden of identifying relevant portions of the record
that demonstrate the absence of a fact or facts
necessary for one or more essential elements of each
claim upon which the moving party seeks judgment.
See Celotex Corp. v. Catrett, 477 U.S. 317, 323 (1986).
If the moving party meets its initial burden, the
opposing party must then set out specific facts showing
a genuine issue for trial in order to defeat the motion.
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 250
(1986); see also Fed. R. Civ. P. 56(c), (e). The
nonmoving party must not simply rely on the pleadings
and must do more than make “conclusory allegations
[in] an affidavit.” Lujan v. Nat’l Wildlife Fed’n, 497
U.S. 871, 888 (1990); see also Celotex, 477 U.S. at 324.
Summary judgment must be granted for the moving
party if the nonmoving party “fails to make a showing

App. 36
sufficient to establish the existence of an element
essential to that party’s case, and on which that party
will bear the burden of proof at trial.” Id. at 322; see
also Abromson v. Am. Pac. Corp., 114 F.3d 898, 902
(9th Cir. 1997).
In light of the facts presented by the nonmoving
party, along with any undisputed facts, the Court must
decide whether the moving party is entitled to
judgment as a matter of law. See T.W. Elec. Serv., Inc.
v. Pac. Elec. Contractors Ass’n, 809 F.2d 626, 631 & n.3
(9th Cir. 1987). When deciding a motion for summary
judgment, “the inferences to be drawn from the
underlying facts ... must be viewed in the light most
favorable to the party opposing the motion.”
Matsushita Elec. Indus. Co. v. Zenith Radio Corp., 475
U.S. 574, 587 (1986) (citation omitted); Valley Nat’l
Bank of Ariz. v. A.E. Rouse & Co., 121 F.3d 1332, 1335
(9th Cir. 1997). Summary judgment for the moving
party is proper when a rational trier of fact would not
be able to find for the nonmoving party on the claims at
issue. See Matsushita, 475 U.S. at 587.
IV.

DISCUSSION

As an initial matter, the Court notes that Beemer’s
four and a half page memorandum in opposition to this
motion does not dispute the evidence offered by USC.
Plaintiff’s few evidentiary references in opposition to
the motion do little to direct the Court to record
evidence supporting plaintiff’s position, let alone
demonstrating a material issue of disputed fact. The
district court is not required “to scour the record in
search of a genuine issue of triable fact. [Courts] rely
on the nonmoving party to identify with reasonable

App. 37
particularity the evidence that precludes summary
judgment.” Keenan v. Allan, 91 F.3d 1275, 1279 (9th
Cir. 1996). To the extent that evidence exists that is
inconsistent with the background set forth above,
plaintiff has either failed to submit it or failed to bring
it to the Court’s attention. Accordingly, based upon the
undisputed facts set forth above, the Court proceeds to
evaluate whether they entitle USC to summary
judgment or whether the facts permit competing,
reasonable inferences in plaintiff’s favor.
A. Plaintiff’s Disability Discrimination Claims
Plaintiff’s disability discrimination claims all
require similar proof. The Unruh Act states that any
violation of the ADA shall also constitute a violation of
the Unruh Act. Cal. Civ. Code § 51(f). Similarly,
Section 504 of the Rehabilitation Act and the ADA are
subject to nearly identical analyses. See Douglas v.
California Dep’t of Youth Auth., 285 F.3d 1226, 1230 n.
3 (9th Cir. 2002) (“The ADA has no federal funding
requirement, but it is otherwise similar in substance to
the Rehabilitation Act, and cases interpreting either
are applicable and interchangeable.” (quotation marks
omitted)). To establish a prima facie claim for disability
discrimination, Beemer must show:
(1)
(2)

(3)

he qualifies as disabled within the meaning of
these statutes;
he was “otherwise qualified” to remain a student
in the Program, i.e. he can meet the essential
eligibility requirements of the school, with or
without reasonable accommodation;
he was dismissed because of his disability; and

App. 38
(4)

USC receives federal financial assistance (for
the Section 504 claim), is a public entity (for the
ADA claim), and/or is a business establishment
(for the Unruh Act claim).

Zukle v. Regents of Univ. of California, 166 F.3d 1041,
1045 (9th Cir. 1999); Cal. Civ. Code § 51 (b). Schools
operating professional training programs are not
required to “lower or to effect substantial modifications
of standards to accommodate a handicapped person.”
Se. Cmty. Coll. v. Davis, 442 U.S. 397, 413 (1979)
(nursing program did not have to admit a deaf
student). Nor is a professional school required to make
“substantial modification[s] [to] its curriculum,” such
as rearranging sequential courses or permitting
students to proceed without completing prior courses.
Zukle, 166 F.3d at 1049.
[I]n the school context, . . . the plaintiff-student
bears the initial burden of producing evidence
that she is otherwise qualified. This burden
includes the burden of producing evidence of the
existence of a reasonable accommodation that
would enable her to meet the educational
institution’s essential [] requirements. The
burden then shifts to the educational institution
to produce evidence that the requested
accommodation would require a fundamental or
substantial modification of its program or
standards. The school may also meet its burden
by producing evidence that the requested
accommodations, regardless of whether they are
reasonable, would not enable the student to
meet its academic standards. However, the

App. 39
plaintiff-student retains the ultimate burden of
persuading the court that she is otherwise
qualified.
Id. at 1047.
As an initial matter, Beemer was not dismissed
from the Program. This undisputed fact alone appears
to entitle USC to summary judgment. On December 10,
2012, Beemer requested medical leave and was granted
medical leave. Gold’s March 2013 request that Beemer
reach out to him to discuss ways for Beemer to return
to the Program and meet its clinical requirements went
un-answered by Beemer. Thereafter Beemer does not
appear to have sought to enroll in courses or otherwise
return to the Program. To the extent that Beemer may
contend he was unable to return to the Program
because of its failure to accommodate his disability, the
Court cannot discern from the evidence why that would
have been the case.10 Out of an abundance of caution,

10

In his opposition, plaintiff argues:
The Defense has also asserted that Mr. Beemer was never
Dismissed by the Program. While technically accurate, Mr.
Beemer was ultimately denied access to the Program by
the U.S.C. failing to accommodate his disability, requiring
him to travel by car longer than he would be able to
endure.

Opp’n at 5. To the extent that Beemer argues that clinical work
had to occur at particular hospitals in order to make Beemer’s
commute shorter, plaintiff has not directed the Court to any
evidence supporting his argument. Plaintiff has not presented
evidence of where he lives, where the hospitals are, why other
forms of transportation were unavailable, why he cannot endure
driving, or how driving relates to his disability. Although the Court

App. 40
the Court will proceed to analyze the other elements of
plaintiff’s disability discrimination claims. Assuming
arguendo that plaintiff was, at least, constructively
dismissed from the Program, USC is still entitled to
summary judgment.
It is unclear exactly what Beemer’ s disability is and
how he contends that it should have been
accommodated. The December 21, 2012 DSP
accommodation instructions appear to have been
directed at plaintiff’s eyesight (requiring enlarged type)
and/or cognition (additional time for examinations).
However, none of plaintiff’s requests in his “Plan for
Returning to Clinical Training” appear to have been
related to his eyesight. Instead, at least one appears to
have been related to his car accident and/or treatment
regimen. See e.g. No. 11 (“Due to my continued rehab
from the car accident, it would be nice to have some
flexibility in my clinical schedule”). In opposition to the
instant motion, plaintiff only mentions his request that
clinical rotations take place at LAC-USC, CHLA, or
Keck Hospital. Opp’n at 4 (“Plaintiff has asserted that
he would have been able to complete the Program at
facilities within a reasonable driving distance so as to

has not scoured every page of the voluminous record offered by
USC, the Court cannot discern any evidence referring to plaintiff’s
commute or driving-related pain. When plaintiff first requested
that his clinical work occur at CHLA or LAC-USC, plaintiff said he
wanted to work at those locations to “obtain as much pediatric
experience as possible before I graduate,” and work in an
environment that was “already familiar.” Dkt. 70-4 Ex. X.
Plaintiff’s November 28, 2012 proposal to return to clinical
rotations does not appear to have made any reference to driving or
his potential commute.

App. 41
accommodate the chronic pain he experienced as a
result of the April 2012 automobile accident.”).
Although the Court cannot discern exactly which
accommodation(s) plaintiff contends he was denied by
USC, it is clear that USC repeatedly sought to
accommodate, and did accommodate, plaintiff’s injuries
and treatment regimen in numerous ways. The record
evidence demonstrates that plaintiff was permitted to
attend all of his treatment and physical therapy
appointments and that when he requested time off for
his injuries, his requests were granted. To the extent
that plaintiff’s repeated absences from ANST 508 and
simulation workshops were not authorized and caused
concern among Program staff, the Court can discern no
evidence that these absences were related to plaintiff’s
disability – he appears to have thought the workshops
would be a waste of his time. See Dkt. 70-4 Ex. X (“I am
willing to consider the two observation days, but GASP
& airway workshop are not necessary”). When plaintiff
was unable to complete his clinical program during
Summer Semester 2012, he was permitted to postpone
completion of his remaining hours until Fall Semester
2012. Thereafter, at plaintiff’s request, the ANST 507
hours were further postponed to Spring Semester 2013,
during which plaintiff took medical leave. To the extent
that plaintiff suffered a disability which did not
interfere with his ability to do normal coursework, but
prevented him from performing clinical work, the
Program’s solution – postponing completion of clinical
hours to a later date – appears to have been
reasonable.

App. 42
The few accommodations that plaintiff was denied
would have required a substantial alteration of the
Program or would not have permitted plaintiff to meet
Program standards. In November 2012, plaintiff
requested that his future clinical rotations be at CHLA
or LAC-USC. In March 2013, plaintiff added Keck
Hospital to his list of permissible sites. However, USC
has offered undisputed evidence that CHLA, LAC-USC,
and Keck Hospital would not have been appropriate
locations for plaintiff to complete his requisite clinical
rotations. According to Gold, plaintiff would, at the
very least, have to complete a rotation at Cedar-Sinai
Medical Center in order to work on certain, requisite
cases. Without completing such a rotation, plaintiff
could not meet national accreditation requirements. In
opposition, plaintiff appears to argue that USC is
required to demonstrate “the volume of cases” at
plaintiff’s requested hospitals. Opp’n at 4. On the
contrary, USC’s primary argument is about the
requisite variety of cases rather than the volume of
cases. More fundamentally, where USC has presented
evidence that would entitle it to summary judgment,
the burden shifts to plaintiff to offer evidence
demonstrating a material issue of disputed fact. Gold’s
unequivocal assertion as director of the Program that
only Cedar-Sinai Medical Center would afford Beemer
an opportunity to work on neurosurgical cases, for
example, satisfies USC’s initial burden here. Plaintiff
has failed to present evidence that neurosurgical cases
were unnecessary or available outside Cedar-Sinai
Medical Center. “The federal judiciary is ill equipped to
evaluate the proper emphasis and content of a school’s
curriculum.” Doherty v. S. Coll. of Optometry, 862 F.2d
570, 576 (6th Cir. 1988). Thus, the Court is required to

App. 43
accord deference to “an educational institution’s
academic decisions” as well as its “determination that
a reasonable accommodation is not available.” Zukle,
166 F.3d at 1047. Plaintiff provides no evidence
contradicting Gold’s assessment of the Program
curriculum and, particularly in these circumstances,
the Court is not able to find USC’s policy to be
unreasonable. Thus, Gold’s description of the available
cases and claim that CHLA, LAC-USC, and Keck
Hospital lacked sufficient case diversity to meet
Program requirements is sufficient to demonstrate that
plaintiff was requesting an unreasonable
accommodation.
Plaintiff’s request to double-enroll in clinical courses
during the Spring and Summer Semesters of 2013 so
that he could graduate on-schedule was similarly
unreasonable. According to Gold, there simply are not
enough hours in the day or week to complete all of the
work two clinical courses would have required.
Furthermore, the courses build upon one another in a
sequence. These considerations alone, suggest that
plaintiff’s request was unreasonable. They are exactly
the type of accommodations rejected in Zukle. 166 F.3d
at 1049 (court had “little difficulty concluding” that
medical school was not required to permit a student to
start clinical clerkships before completing prior
clerkships) (“We defer to the Medical School’s academic
decision to require students to complete courses once
they are begun and conclude, therefore, that this
requested accommodation was not reasonable.”).
Even assuming that it would have been feasible and
appropriate for Beemer to enroll in two clinical courses

App. 44
simultaneously for two semesters in a row, USC’s
concern that, as of December 2012, Beemer was not
prepared to return to clinical rounds appears to have
been well-founded and unrelated to Beemer’s
disability.11 The only clinical course completed by
Beemer resulted in his being placed on academic
probation. As a result of his probationary status and
the substantial period in which Beemer was not in a
clinical course, faculty requested in the Contract of
Study that Beemer complete several workshops and
additional study to ensure that patients would be safe
in his care. The record evidence demonstrates that
Beemer first agreed to the faculty’s proposal and
subsequently failed to attend the requisite workshops
– apparently for reasons unrelated to his disability.
Beemer’s repeated failure to communicate with his
peers and faculty as well as his failure to timely
complete credentialing documents only reinforced
faculty concerns during Fall Semester 2012, a period in
which USC reasonably expected Beemer to
demonstrate that he was ready to return to caring for
patients.
In light of the foregoing, the Court finds that there
are no material issues of disputed fact requiring trial
on plaintiff’s disability discrimination claims. At
bottom, the undisputed evidence only supports

11

Additionally, it is unclear how plaintiff contends he would have
physically performed the work of two, simultaneous clinical
rotations. By requesting medical leave during Spring Semester
2013, Beemer appears to have acknowledged that he was not
medically ready to return to any clinical work, let alone work the
equivalent of 8 to 10 full days in a single week.

App. 45
inferences in USC’s favor - plaintiff was afforded
reasonable accommodations and denied unreasonable
ones. See Doherty, 862 F.2d at 575 (“refusal to waive
the clinical proficiency requirement was not a failure to
reasonably accommodate the plaintiff’); McGuinness v.
Univ. of New Mexico Sch. of Med., 170 F.3d 974, 979
(10th Cir. 1998) (medical school reasonably required
student with anxiety to repeat coursework that he
failed rather than permit the student to advance);
Kaltenberger v. Ohio Coll. of Podiatric Med., 162 F.3d
432, 436 (6th Cir. 1998) (request for abbreviated
remedial course in lieu of repeating full semester was
not reasonable). Thus, plaintiff was not “otherwise
qualified” to remain in the Program and USC’s
management of Beemer’s academic requirements did
not constitute discrimination on the basis of Beemer’s
disability.
USC’s motion is GRANTED with respect to
plaintiff’s disability discrimination claims.
B. Plaintiff’s Remaining Claims
Plaintiff’s sexual harassment claim pursuant to the
Unruh Act and gender discrimination claim pursuant
to Title IX do not withstand the motion for summary
judgment.
As an initial matter, both remaining claims are
barred by the statute of limitations. Plaintiff’s claim for
sexual harassment in violation of the Unruh Act is
subject to the two-year personal injury statute of
limitations in California. See West Shield
Investigations & Sec. Consultants v. Superior Court, 82
Cal. App. 4th 935, 952, 98 Cal. Rptr. 2d 612 (2000), as

App. 46
modified on denial of reh’g (Aug. 23, 2000) ( discussing
prior disagreement among federal courts and adopting
the personal injury limitation period); Gatto v. Cty. of
Sonoma, 120 Cal. Rptr. 2d 550, 559 (2002) (agreeing
with West Shield, in pertinent part, that the sexual
harassment provisions of Cal. Civ. Code §§ 51 et seq.
are subject to a personal injury statute of limitations
established by statute); Cal. Civ. Code § 335.1 (personal
injury actions subject to two-year limitation period).
Plaintiff’s Title IX claim predicated upon the same
sexual harassment allegations is also subject to the
two-year statute of limitations. See Stanley v. Trustees
of California State Univ., 433 F.3d 1129, 1135 (9th Cir.
2006).
Plaintiff appears to contend that he was sexually
harassed by Faulk and Valmidiano while he was
enrolled in ANST 505 at Harbor. On April 12, 2012,
Gold removed Beemer from Harbor to ensure that any
sexual harassment that may have occurred would stop.
There is no evidence of sexual harassment occurring
after April 2012, when Beemer stopped working at
Harbor. Thus, plaintiff’s claims accrued no later than
April 2012. The statute of limitations thus expired no
later than April 2014. Plaintiff filed this action in
February 2015, at least 10 months after the two-year
statute of limitations expired. Accordingly, USC is
entitled to summary judgment on plaintiff’s sexual
harassment and gender discrimination claims.
Plaintiff’s Title IX claim further fails because
plaintiff cannot establish that USC was “deliberately
indifferent” to the sexual harassment such that USC
should be liable for Faulk’s acts. See Gebser v. Lago

App. 47
Vista Indep. Sch. Dist., 524 U.S. 274 (1998). To prove
a violation of Title IX, plaintiff must show USC had
actual knowledge of sexual harassment and responded
to that knowledge with deliberate indifference. See
Reese v. Jefferson Sch. Dist. No. 14J, 208 F.3d 736, 739
(9th Cir. 2000). Plaintiff cannot do so here. The
undisputed facts establish that USC immediately
responded when Beemer reported what he perceived as
sexual harassment. On April 12, 2012, Beemer
reported Faulk to Gold and Embrey and they promptly
removed him from Harbor, where he might interact
with Faulk or face harassment in the future. Beemer
does not present any evidence that USC exercised
control of Faulk (a CRNA at an affiliate hospital) nor
does plaintiff argue that USC was required to take
different remedial action. To the extent that plaintiff
bases his Title IX claim upon Valmidiano’s “pimping”
comments, the undisputed evidence similarly
demonstrates that, as soon as Beemer reported the
conduct, Manibhai arranged Beemer’s schedule to
ensure he would never work with Valmidiano again.
Accordingly, plaintiff cannot establish that USC was
deliberately indifferent to sexual harassment.
In light of the foregoing, USC’s motion for summary
judgment is also GRANTED with respect to plaintiff’s
claims for sexual harassment and violation of Title IX.
V. CONCLUSION
USC’s motion
GRANTED.

for

IT IS SO ORDERED.

summary

judgment

is

App. 48
00 :
Initials of Preparer

CMJ

18

App. 49

APPENDIX D
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 17-56573
D.C. No. 2:15-cv-01458-CAS-SS
Central District of California, Los Angeles
[Filed April 1, 2019]
_____________________________
TROY BEEMER,
)
)
Plaintiff-Appellant,
)
)
v.
)
)
UNIVERSITY OF SOUTHERN )
CALIFORNIA and DOES, 1-10, )
)
Defendants-Appellees.
)
_____________________________ )
ORDER
Before: KLEINFELD, COLE,* and NGUYEN, Circuit
Judges.

*

The Honorable Ransey Guy Cole, Jr., United States Circuit Judge
for the U.S. Court of Appeals for the Sixth Circuit, sitting by
designation.

App. 50
Plaintiff-Appellant’s petition for rehearing is
DENIED.

